No. 21-___
IN THE

Supreme Court of the United States
JUAN ANGEL VELASQUEZ-CANALES,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit
MOTION TO PROCEED IN FORMA PAUPERIS
Petitioner Juan Angel Velasquez-Canales, through undersigned counsel, asks
leave to file the attached petition for a writ of certiorari without prepayment of
costs and to proceed in forma pauperis. Counsel was appointed in the United
States Court of Appeals for the Fourth Circuit pursuant to 18 U.S.C. ยง 3006A.
This the 9th day of July, 2021.

Respectfully submitted,
/s/ Jennifer C. Leisten
JENNIFER C. LEISTEN
Assistant Federal Public Defender
Counsel of Record
Eastern District of North Carolina
150 Fayetteville St., Suite 450
Raleigh, NC 27601
(919) 856-4236
jennifer_leisten@fd.org
Counsel for Petitioner

